<html>
<title> - TRAINING AND EQUIPPING AFGHAN SECURITY FORCES: UNACCOUNTED WEAPONS AND STRATEGIC CHALLENGES</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




 
TRAINING AND EQUIPPING AFGHAN SECURITY FORCES: UNACCOUNTED WEAPONS AND 
                          STRATEGIC CHALLENGES

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY
                          AND FOREIGN AFFAIRS

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 12, 2009

                               __________

                           Serial No. 111-115

                               __________

Printed for the use of the Committee on Oversight and Government Reform


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform



                  U.S. GOVERNMENT PRINTING OFFICE
64-912                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5730273817342224233f323b277934383a79">[email&#160;protected]</a>  

              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                   EDOLPHUS TOWNS, New York, Chairman
PAUL E. KANJORSKI, Pennsylvania      DARRELL E. ISSA, California
CAROLYN B. MALONEY, New York         DAN BURTON, Indiana
ELIJAH E. CUMMINGS, Maryland         JOHN M. McHUGH, New York
DENNIS J. KUCINICH, Ohio             JOHN L. MICA, Florida
JOHN F. TIERNEY, Massachusetts       MARK E. SOUDER, Indiana
WM. LACY CLAY, Missouri              TODD RUSSELL PLATTS, Pennsylvania
DIANE E. WATSON, California          JOHN J. DUNCAN, Jr., Tennessee
STEPHEN F. LYNCH, Massachusetts      MICHAEL R. TURNER, Ohio
JIM COOPER, Tennessee                LYNN A. WESTMORELAND, Georgia
GERALD E. CONNOLLY, Virginia         PATRICK T. McHENRY, North Carolina
MIKE QUIGLEY, Illinois               BRIAN P. BILBRAY, California
MARCY KAPTUR, Ohio                   JIM JORDAN, Ohio
ELEANOR HOLMES NORTON, District of   JEFF FLAKE, Arizona
    Columbia                         JEFF FORTENBERRY, Nebraska
PATRICK J. KENNEDY, Rhode Island     JASON CHAFFETZ, Utah
DANNY K. DAVIS, Illinois             AARON SCHOCK, Illinois
CHRIS VAN HOLLEN, Maryland
HENRY CUELLAR, Texas
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
PETER WELCH, Vermont
BILL FOSTER, Illinois
JACKIE SPEIER, California
STEVE DRIEHAUS, Ohio
JUDY CHU, California

                      Ron Stroman, Staff Director
                Michael McCarthy, Deputy Staff Director
                      Carla Hultberg, Chief Clerk
                  Larry Brady, Minority Staff Director

         Subcommittee on National Security and Foreign Affairs

                JOHN F. TIERNEY, Massachusetts, Chairman
CAROLYN B. MALONEY, New York         JEFF FLAKE, Arizona
PATRICK J. KENNEDY, Rhode Island     TODD RUSSELL PLATTS, Pennsylvania
CHRIS VAN HOLLEN, Maryland           DAN BURTON, Indiana
PAUL W. HODES, New Hampshire         JOHN L. MICA, Florida
CHRISTOPHER S. MURPHY, Connecticut   JOHN J. DUNCAN, Jr., Tennessee
PETER WELCH, Vermont                 MICHAEL R. TURNER, Ohio
BILL FOSTER, Illinois                LYNN A. WESTMORELAND, Georgia
STEVE DRIEHAUS, Ohio                 PATRICK T. McHENRY, North Carolina
STEPHEN F. LYNCH, Massachusetts      JIM JORDAN, Ohio
HENRY CUELLAR, Texas                 JEFF FORTENBERRY, Nebraska
DENNIS J. KUCINICH, Ohio
                     Andrew Wright, Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 12, 2009................................     1
Statement of:
    Gimble, Thomas, Principal Deputy Inspector General, U.S. 
      Department of Defense......................................    24
    Johnson, Charles Michael, Jr., Director of International 
      Affairs and Trade, U.S. Government Accountability Office...    10
    Schneider, Mark, senior vice president, International Crisis 
      Group......................................................    50
Letters, statements, etc., submitted for the record by:
    Flake, Hon. Jeff, a Representative in Congress from the State 
      of Arizona, prepared statement of..........................     7
    Gimble, Thomas, Principal Deputy Inspector General, U.S. 
      Department of Defense, prepared statement of...............    26
    Johnson, Charles Michael, Jr., Director of International 
      Affairs and Trade, U.S. Government Accountability Office, 
      prepared statement of......................................    13
    Schneider, Mark, senior vice president, International Crisis 
      Group, prepared statement of...............................    53


TRAINING AND EQUIPPING AFGHAN SECURITY FORCES: UNACCOUNTED WEAPONS AND 
                          STRATEGIC CHALLENGES

                              ----------                              


                      THURSDAY, FEBRUARY 12, 2009

                  House of Representatives,
     Subcommittee on National Security and Foreign 
                                           Affairs,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:02 a.m., in 
room 2157, Rayburn House Office Building, Hon. John F. Tierney 
(chairman of the subcommittee) presiding.
    Present: Representatives Tierney, Maloney, Murphy, Welch, 
Foster, Driehaus, Lynch, Cuellar, Kucinich; Flake, Duncan, and 
Jordan.
    Also present: Representative Towns.
    Staff present: Dave Turk, staff director; Andy Wright, 
counsel; Alexandra McKnight, Pearson Foreign Affairs fellow; 
Margaret Costa, intern; Thomas Alexander, senior counsel; Dr. 
Christopher Bright, senior professional staff member; Adam 
Fromm, minority chief clerk and Member liaison; and Glenn 
Sanders, contractor, Department of Defense;
    Mr. Tierney. Good morning, everybody. A quorum being 
present, the Subcommittee on National Security and Foreign 
Affairs hearing entitled, ``Training and Equipping Afghan 
Security Forces: Unaccounted Weapons and Strategic 
Challenges,'' will come to order.
    I want to acknowledge our new ranking member, Jeff Flake 
from Arizona and congratulate him. We continue to look forward 
to working with you. We appreciate also his cooperation and the 
staff's cooperation in putting together the oversight plan for 
the 111th Congress, which was accepted on Tuesday.
    It has also been our experience in the past that all of 
these are good witnesses today and their organizations have 
been very helpful to Congress as we try to do our oversight 
function. GAO and the IG's office have always done a tremendous 
job in helping us perform our duties, and also independent non-
governmental agencies like Mr. Schneider's have been very 
effective, and we have worked with them on many occasions. So 
we want to thank each of our witnesses and their staffs for 
their related reports today as well.
    Before we begin today, I want to say that we intend to have 
a very robust oversight hearing schedule with respect to 
Afghanistan, and I think that we will all find that there are a 
lot of other things we want to put on the plate as well, but 
this is one subject--given particularly the opportunity that we 
have to look at a new strategic view of what is going on in 
that region, it will be an opportunity for us to work on this.
    As you can tell by the fact that we scheduled our first 
hearing here today, we are all going to be working on an 
expedited basis. I ask unanimous consent that only the chairman 
and the ranking member of the subcommittee be allowed to make 
opening statements. Without objection, so ordered.
    And I ask unanimous consent that the hearing record be kept 
open for 5 days so that all members of the subcommittee be 
allowed to submit a written statement for the record. So 
ordered.
    And I understand that we have been graced with the presence 
of our chairman of the full committee, Mr. Towns, and I want to 
recognize you, with Mr. Flake's assent on that, and thank you 
for joining us in this particular hearing. Would you like to 
make a statement, Mr. Towns?
    Mr. Towns. Thank you very much Mr. Chairman. I am pleased 
to be here for the first hearing of the Subcommittee on 
National Security and Foreign Affairs.
    Oversight of Defense and National Security issues is a 
priority for the committee this year, and we are fortunate to 
have two experienced and thoughtful Members in Mr. Tierney and 
Mr. Flake leading this important subcommittee. We are pleased 
with that.
    Last month the GAO issued a high-risk list which included 
more than a dozen DOD- and Defense-related programs. I joined 
with Mr. Issa in a letter to Secretary Gates notifying him and 
DOD's high-risk areas of a top priority for the committee and 
asking Secretary Gates to meet with us on his plans for fixing 
these problem areas.
    Today's hearing finding inadequate control of weapons 
issued to Afghanistan, of course, and to Afghan Security 
Forces, is a good example of the types of issues we will 
address. We need to make sure that DOD has systems and policies 
in place that reduce risk to our national security and our 
troops. There is no question that our men and women in uniform 
are America's greatest asset, but too often DOD's management 
practices have been inadequate to meet the challenges that our 
troops and our Nation face.
    I hope today's hearing is the first of many that identify 
and fix the deficiencies in our national security operations. I 
look forward to working together with all of you as we move 
forward.
    And I yield back to Chairman Tierney, and of course I 
commend Chairman Tierney and ranking member Flake and their 
staff for this hearing, and of course I look forward to working 
with you as we fix some of the problems that we know exist. 
Thank you so much and I yield back.
    Mr. Tierney. Thank you Mr. Chairman.
    During the last Congress, this subcommittee sent three 
congressional delegations to Afghanistan and Pakistan, and we 
held seven related oversight hearings. This Congress certainly 
intends to continue our rigorous oversight. In fact, I led 
another congressional delegation to Afghanistan and Pakistan 
that returned just last week, and joining me were subcommittee 
Members Chris Van Hollen, Peter Welch, and Chris Murphy, as 
well as Representatives George Miller and Ron Kind.
    The overriding takeaway from that fact-finding trip, 
whether it was meeting with President Karzai or President 
Zardari or U.S. Ambassadors or General McKiernan or with the 
NGO's and other experts, is that we are in a unique moment in 
time to ask fundamental questions about the U.S.' efforts in 
both of those countries.
    What are we trying to accomplish, what are we willing to do 
to get to that point, whether we as a government have the 
capacity and the resources and the will to achieve, and most 
important, as a public servant, what will Members say when they 
look into the eyes of the parents who sacrificed their son or 
daughter to this effort?
    I am encouraged that President Obama's new administration 
is conducting a top to bottom review of the U.S. policy toward 
Afghanistan and Pakistan, and it is my hope that the 
congressional committees will also be actively involved. I can 
assure that this subcommittee will be. We will be asking tough 
questions and examining, among other issues, aide 
accountability and efficacy, including use of private 
contractors, U.S. targeting procedures, the capacity of various 
U.S. Government agencies and departments to carry on needed 
activities, and the development of the rule of law and justice 
sectors in these respective countries.
    In July 2007, the Government Accountability Office reported 
about the shortcomings of the U.S. military's efforts to 
account for weapons involved in the Iraq train and equip 
program. The Inspector General's Office also filed a report. In 
January 2008, Congress passed a law requiring that no defense 
articles be provided to Iraq until the president certifies that 
a registration and monitoring system has been established and 
that law then listed what the systems would include.
    It was our hope that lessons learned in that conflict would 
inform policies in other conflicts. To assure that this 
happened, the subcommittee, together with the House Committee 
on Foreign Affairs, requested the Government Accountability 
Office review the accountability for weapons that the Defense 
Department obtained, transported, stored, and distributed to 
the Afghan National Security Forces. As it happens, the 
Department of Defense had also asked the Inspector General to 
file a similar report, and Mr. Schneider's International Crisis 
Group was working on the same area.
    We asked the Government Accountability Office to 
investigate whether the Defense Department could account for 
the weapons intended for the Afghan army and police. We also 
asked to what extent has the U.S. military ensured that the 
Afghan National Security Forces could properly safeguard and 
account for weapons and other sensitive equipment issued to 
them.
    The Government Accountability Office report released today 
answers those questions, and what they uncovered is disturbing. 
The International Crisis Group recently put the importance of 
the Afghan police this way. They said: ``Policing goes to the 
very heart of state-building. A trusted law enforcement 
institution would assist nearly everything that needs to be 
achieved in Afghanistan.''
    A Rand Corp. study commissioned by the Secretary of Defense 
on counterinsurgency strategy in Afghanistan even placed the 
importance of the police ahead of the army. Building the police 
in a counterinsurgency should be a higher priority than the 
creation of the army because police are the primary arm of the 
government in towns and villages across the country, they have 
close contact with local populations in cities and villages, 
and will inevitably have a good intelligence picture of 
insurgent activity.
    The issue we address in detail today, weapons 
accountability, serves as an important and tangible harbinger 
of how we have been doing so far with United States and 
international efforts to train and equip the Afghan police.
    The GAO concludes, ``That accountability lapses occurred 
throughout the supply chain, including by the U.S. military, 
who didn't maintain complete records for about 87,000, or 36 
percent, of the 242,000 U.S.-procured weapons shipped to 
Afghanistan. By not being able,'' ``to provide serial numbers 
for about 46,000 of those weapons and by not maintaining 
reliable records for about 135,000 weapons that the U.S. 
military obtained for the Afghan National Security Forces from 
21 other countries.''
    We will hear from the leader of that investigation, Mr. 
Johnson. We will also hear about the Defense Department's 
Inspector General's parallel investigation that found similar 
accountability lapses in training and equipping Afghan National 
Security Forces. The Department of Defense Inspector General's 
report concluded that, ``the accountability control and 
physical security of arms, ammunition, and explosives could be 
compromised and vulnerable to displacement, loss, or theft.''
    In August 2008, the Undersecretary for Defense for 
Intelligence put it this way for what is at stake. ``The 
security for conventional arms, ammunition, and explosives is 
paramount, as the theft or misuse of this material will gravely 
jeopardize the safety and security of personnel and 
installations worldwide.''
    If we go back to the families of the U.S. soldiers who pay 
the ultimate price for our security, what if we had to tell 
those families not only why they were in Afghanistan, but why 
their son or daughter died at the hands of an insurgent using a 
weapon purchased by the U.S. taxpayers? But that is what we 
risk if we were to have tens of thousands of weapons that we 
provided washing around Afghanistan off the books.
    The Defense Department has acknowledged these serious 
shortcomings, it has concurred with all three of the Government 
Accountability Office's recommendations, and it appears to be 
taking concrete steps to bring together greater accountability 
in transfers of arms to the Afghan army and police.
    General Formica, the commander of the Combined Security 
Transition Command, Afghanistan [CSTC-A], put it this way. When 
we met with him in Kabul last week, he said, ``we have to get 
better because of the Government Accountability Office 
report.'' But there is a huge amount of remaining work to be 
done, something General Formica also admits.
    And it is not just weapons and ammunition that we are 
talking about. Specifying sensitive defense items such as night 
vision devices poses special danger to the public and the U.S. 
forces if they fall into the wrong hands. Yet CSTC-A began 
issuing 2,410 such devices to Afghan National Army units in 
July 2007 without establishing controls or conducting enhanced 
end-use monitoring. It was some 15 months before an end-use 
plan was developed, and some 10 devices remain unaccounted for 
to this day.
    This subcommittee will be watching intently. The stakes are 
simply too high to get this wrong. But even beyond keeping 
track of the weapons we give to the Afghan army and police, 
there are more fundamental problems, especially with the 
efforts to ramp up the Afghan police. For instance, the 
training of the Afghan police continues to lag significantly 
behind that of the army.
    In order to examine these broader challenges in training 
and equipping the Afghan police, we will hear today about a 
recently released International Crisis Group report entitled, 
``Policing in Afghanistan: Still Searching for a Strategy.'' 
This report found that too much emphasis has continued to be 
placed on using the police to fight the insurgency rather than 
crime.
    In addition, the deteriorating security situation and 
political pressure for quick results has continued to obscure 
longer term strategic planning, and there needs to be much more 
coherence of approach in streamlining of programs.
    Last year the State Department Inspector General's office 
warned, ``confidence that the government can provide a fair and 
effective justice system is an important element to convincing 
war-battered Afghans to build their future in a democratic 
system rather than reverting to one dominated by terrorist 
warlords or narcotic traffickers.'' After 30 years of conflict 
and 7 years of U.S. participation, the patience of the Afghan 
people is being sorely tested.
    A recent poll by the Asia Foundation found that 38 percent 
of Afghans think the country is headed in the right direction--
that is down from 64 percent in 2004--while 32 percent feel 
that it is moving in the wrong direction, compared to 11 
percent in 2004. These findings are reinforced by the ABC News 
poll released on Monday showing that 40 percent of Afghans 
think their country is headed in the right direction compared 
to 77 percent in 2005, while 38 percent believe the country is 
headed in the wrong direction compared to 6 percent in 2005.
    As we contemplate a new strategic overview about to be 
adopted by the new administration, the condition of the Afghan 
National Security Forces will be of paramount concern. Included 
in that concern is the ability of those forces to operate, to 
secure territory gained and weapons afforded to them, and how 
this all relates to the broader U.S. efforts and plans in 
Afghanistan.
    Let us be perfectly blunt to the American people about the 
difficulty of the challenges ahead. The reports highlighted at 
this hearing as well as the subcommittee's recent meeting with 
General Formica in Afghanistan indicate serious impediments, 
poor security for stored weapons, illiteracy hampering 
efficient operations, corruption, high desertion rates, and 
unclear guidance.
    The Defense Department has particularly noted significant 
shortfalls in the number of field and embedded trainers and 
mentors, which currently serves as a primary impediment to 
advancing the capabilities of the Afghan National Security 
Forces. CSTC-A officials reported in December of last year that 
they only had 64 percent of the 6,675 personnel required to 
perform its mission overall and only about half of the 4,159 
mentors that they require.
    As we listen to today's testimony, I trust it will help 
inform whether Congress needs to legislate procedures to 
safeguard weapons in Afghanistan, as we did in Iraq, or to take 
other action in this field. The challenges are immense, but 
this is just too important not to get right.
    As I said at our hearing last year on efforts to train and 
equip the Afghan police, 7 years after the invasion of 
Afghanistan, the stakes here remain enormous. Put simply, 
effective and honest Afghan police and a well-functioning 
justice system are critical to the future of Afghanistan and to 
the security of all Americans. We simply must do better and 
time is of the essence.
    I now would like to yield to Mr. Flake for his opening 
remarks.
    Mr. Flake. I thank the chairman and want him to know how 
excited I am to be on this subcommittee, and I look forward to 
the hearings that will be held.
    I am pleased that we are starting with this hearing. 
Obviously these are troubling reports about what is going on in 
Afghanistan. I just returned from Afghanistan in December of 
last year, and this was not on our radar screen when I went 
there, but it will be henceforth.
    I would like unanimous consent to issue my statement for 
the record.
    Mr. Tierney. No objection.
    [The prepared statement of Hon. Jeff Flake follows:]

    [GRAPHIC] [TIFF OMITTED] T4912.001
    
    [GRAPHIC] [TIFF OMITTED] T4912.002
    
    Mr. Flake. But let me just say this is a committee on 
oversight and reform. I am pleased that recommendations have 
been made. It would be nice to have members of the 
administration and Department of Defense and perhaps State to 
let us know what plans are being made to implement these 
recommendations and how long they think that will take, and I 
assume that we will followup in this subcommittee to make sure 
that these recommendations are being implemented.
    That said, it is extremely troubling to find that the 
Department of Defense cannot account for up to one third of the 
weapons that have been issued to Afghan forces. That is reason 
enough right there to hold a hearing and to hold people to 
account for what has gone on, so I look forward to the 
testimony and thank all the witnesses who have come, and 
appreciate the subcommittee taking up this important issue.
    Mr. Tierney. Thank you, Mr. Flake.
    Just in relation to one of the comments that you made, I 
agree with you it would be nice to have the Department of 
Defense here. They have a policy, however, that they don't 
choose to sit on panels where there are non-governmental 
officials there and we are only having one panel at this 
hearing. So they were given the opportunity to come and state 
their policy.
    At some point we will take that up with the chairman. Maybe 
we ought to start just subpoenaing witnesses, and then we will 
decide our own panels the way we want and have the Congress run 
congressional hearings and the Department of Defense will have 
an opportunity to participate.
    We did meet with General Formica and all of his staff over 
there who are running CSTC-A, and we got that while we were in 
there, and at the back of the reports, you will see the 
response from the Department of Defense as well. But the 
comments are well taken, thank you.
    At this point in time, we will hear from our witnesses, and 
we will go in order of the way that they are seated on that.
    Let me just introduce, if I could, Mr. Charles Michael 
Johnson, Jr. Mr. Johnson is the director of the International 
Affairs and Trade Division at the U.S. Government 
Accountability Office. He has had an extremely distinguished 27 
year career with the Government Accountability Office, having 
won numerous awards, including a special commendation award for 
outstanding performance, leadership, management, and high 
congressional client satisfaction.
    I should also add that this subcommittee has kept Mr. 
Johnson and his team very busy over the past 2 years. As I 
noted earlier, we greatly appreciate the extensive efforts by 
you and all of your team.
    Mr. Thomas Gimble is the Principle Deputy Inspector General 
of the Department of Defense. Before his current position, he 
was the Deputy Inspector General for Intelligence. He is a 
Vietnam veteran and a recipient of the bronze star and purple 
heart. He has also received the Secretary of Defense medal for 
exceptional civilian service. We thank you for your continued 
service to the country, Mr. Gimble, and for testifying today.
    Mr. Mark Schneider is the Senior Vice President of the 
International Crisis Group. He has also had a long career as a 
public servant. Before coming to the ICG, Mr. Schneider was the 
Director of the U.S. Peace Corps. He was also Assistant 
Administrator for Latin America and the Caribbean for USAID. He 
has also been a vital resource for the subcommittee during my 
tenure as chairman and others as well, and I want to thank him 
for testifying today.
    It is the policy of the subcommittee to swear all of you in 
before you testify, so I ask you to please stand and raise your 
right hands, and if there is any person who will be assisting 
you in your testimony, I ask that they also stand and raise 
their right hands.
    [Witnesses sworn.]
    Mr. Tierney. Your full written statements will be put on 
the hearing record, I think as experienced with people 
testifying, you know this to be the case. So we ask that you 
testify within a 5-minute period if you can. We will try to be 
lenient with that to the extent that we can, but I know that 
members of the panel here are anxious to ask questions. They 
have probably all read your reports thoroughly, were impressed 
by them, and they probably instigated a number of thoughtful 
questions, and we want to get to that when we can.
    So Mr. Johnson, if you could be kind enough to give us your 
remarks.

    STATEMENT OF CHARLES MICHAEL JOHNSON, JR., DIRECTOR OF 
INTERNATIONAL AFFAIRS AND TRADE, U.S. GOVERNMENT ACCOUNTABILITY 
                             OFFICE

    Mr. Johnson. Thank you Mr. Chairman and members of the 
subcommittee.
    I am pleased to be here to discuss the report GAO released 
today on accountability for small arms and light weapons that 
the United States has obtained for Afghan National Security 
Forces, that is the Afghan National Army and the Afghan 
National Police. This hearing is particularly timely given the 
unstable security situation in Afghanistan which increases the 
potential risk of death and loss of weapons.
    My testimony today will focus on three issues: the types 
and quantity of weapons that the Department of Defense has 
obtained for the Afghan National Security Forces, whether 
Defense can account for these weapons, and the extent to which 
the Afghan Security Forces can account and safeguard these 
weapons.
    With respect to the first issue, from fiscal year 2002 to 
2008, the United States has spent over $16.5 billion to train 
and equip the Afghan National Police and Army. As part of this 
effort, Defense, through the U.S. Army and Navy, purchased over 
242 small arms and light weapons at a cost of about $120 
million. As the figure shows, a variety of small arms and light 
weight weapons were purchased: rifles, pistols, machine guns, 
mortars, and grenade launchers.
    In addition, Defense has reported that 21 other countries, 
as the chairman has noted, provided about 135,000 weapons 
through the Department of Defense. These weapons were obtained 
between June 2002 and June 2008, and the international 
community valued these weapons at about $103 million. This 
brings the total number of weapons that Defense obtained for 
the Afghan Security Forces to over 375,000.
    Before I address accountability, I would like to note that 
the CSTC-A, the Combined Security Transition Command, 
Afghanistan, which is located in Kabul, is primarily 
responsible for training and equipping the Afghan Security 
Forces. CSTC-A is also responsible for receiving, storing, and 
distributing weapons to the Afghan Security Forces and for 
monitoring the use of the U.S.-procured weapons and other 
sensitive equipment.
    As for weapons accountability, we found that lapses in 
accountability occurred at all phases of the supply chain, 
including when the weapons were obtained, transported to 
Afghanistan, and stored at two central storage depots in Kabul. 
While we found that Defense has accountability procedures for 
its own weapons--our own U.S. weapons, including serial number 
registration and reporting of routine physical inventories of 
weapons stored in depots, Defense did not provide clear 
guidance to U.S. personnel in Afghanistan, CSTC-A in 
particular, regarding what procedures apply when handling 
weapons obtained for Afghanistan Security Forces.
    As such, the U.S. Army and CSTC-A did not complete records 
for over one-third of the 242 weapons the U.S. procured and 
shipped to Afghanistan. Specifically, for about 46,000 weapons, 
the Army and CSTC-A did not record and maintain serial numbers 
to uniquely enable us or anyone else to identify those weapons. 
For about 41,000 weapons with the serial numbers recorded, 
CSTC-A did not have any records of their location or 
disposition.
    Furthermore, CSTC-A did not maintain reliable records, 
especially serial numbers, for any of the 135,000 weapons that 
were obtained through the international donors.
    Overall, there was a lack of systematic accountability for 
over half of the weapons that CSTC-A and that the U.S. 
Government had obtained for Afghan Security Forces, about 
200,000 weapons.
    During transport to Afghanistan accountability was also 
compromised. For example, Defense and contractors sometimes 
shipped weapons to Afghanistan without corresponding shipping 
manifests that CSTC-A needed to verify receipt of weapons. At 
the central storage depot facilities in Afghanistan, CSTC-A did 
not maintain complete and accurate inventory records for 
weapons and allowed poor security to persist.
    In addition, CSTC-A did not begin tracking all weapons 
stored at the depot by serial numbers and did not conduct 
routine physical inventories until July 2008. The inventories 
revealed a theft of 47 pistols.
    On a related matter, since July 2007, Defense has issued 
over 2,400 sensitive night vision devices to Afghan National 
Army. For these extremely sensitive devices, Defense guidance 
calls for enhanced monitoring of their end use. We found, 
however, that CSTC-A did not begin monitoring these specific 
devices until October 2008, about 15 months after they issued 
them. CSTC-A has reported in December 2008 that all but 10 of 
the sensitive devices have been accounted for.
    And with respect to the Afghan Security Forces capability, 
despite U.S. training efforts, Afghan units cannot fully 
safeguard and account for weapons, placing these weapons at 
particular risk of theft and loss. In February 2008, CSTC-A 
acknowledged that it had issued weapons to Afghan Security 
Forces without proper training and accountability procedures 
being in place.
    Recognizing a need for improved accountability, CSTC-A and 
the State Department deployed hundreds of U.S. mentors and 
trainers to, among other things, help Afghan Army and Police 
Forces be able to improve their accountability over weapons.
    The statement I am submitting for the record details a 
variety of factors that have reportedly contributed to 
deficiencies in Afghan Security Forces' ability to account for 
weapons. Among them, lack of functioning property book 
operations, unclear guidance, illiteracy, and poor security. It 
also provides additional details on shortfalls and the number 
of U.S. personnel needed to train and mentor Afghan Security 
Forces and to advance the capability to safeguard and account 
for weapons.
    In summary, we have serious concerns about the 
accountability of weapons that Defense obtained for Afghan 
Security Forces and have made several recommendations to help 
improve accountability.
    In particular, we have recommended that the Secretary of 
Defense establish clear accountability procedures for weapons 
while they are in the control and custody of the United States, 
including tracking all weapons by serial numbers and conducting 
routine physical inventories. Second, we have recommended that 
the Secretary of Defense direct CSTC-A to specifically assess 
and verify each Afghan Security Force's capacity to safeguard 
and account for weapons unless a special waiver is granted. 
Finally, we have also recommended that sufficient and adequate 
resources be devoted to CSTC-A's effort to train and equip 
Afghan Security Forces.
    Defense has concurred with our recommendations and has 
taken some steps to implement them. Those specific steps are 
detailed in the statement which I will submit for the record.
    Mr. Chairman and members of the subcommittee, this 
concludes my opening and prepared statement. I would be happy 
to answer any questions.
    [The prepared statement of Mr. Johnson follows:]

    [GRAPHIC] [TIFF OMITTED] T4912.003
    
    [GRAPHIC] [TIFF OMITTED] T4912.004
    
    [GRAPHIC] [TIFF OMITTED] T4912.005
    
    [GRAPHIC] [TIFF OMITTED] T4912.006
    
    [GRAPHIC] [TIFF OMITTED] T4912.007
    
    [GRAPHIC] [TIFF OMITTED] T4912.008
    
    [GRAPHIC] [TIFF OMITTED] T4912.009
    
    [GRAPHIC] [TIFF OMITTED] T4912.010
    
    [GRAPHIC] [TIFF OMITTED] T4912.011
    
    [GRAPHIC] [TIFF OMITTED] T4912.012
    
    [GRAPHIC] [TIFF OMITTED] T4912.013
    
    Mr. Tierney. Thank you, Mr. Johnson.
    Mr. Gimble.

STATEMENT OF THOMAS GIMBLE, PRINCIPAL DEPUTY INSPECTOR GENERAL, 
                   U.S. DEPARTMENT OF DEFENSE

    Mr. Gimble. Chairman Tierney, distinguished members of the 
committee, thank you for the opportunity to appear before you 
this morning and discuss our report on the assessments of arms, 
ammunition, explosives, and controlled accountability, also 
security assistance, and the sustainment of the Afghan National 
Security Forces.
    Early in 2008, the Inspector General assembled a team to 
return to Iraq and Afghanistan to determine the status of the 
corrective actions resulting from our report on munitions 
accountability and control. We also made a decision to focus on 
Afghanistan because our military there is facing similar 
challenges with respect to providing effective accountability 
and control for equipment being supplied to the Afghanistan 
Security Forces.
    While in Afghanistan we also assessed security assistance 
program processes, Afghanistan Security Forces logistics 
sustainability, and the development of an Afghanistan military 
healthcare system.
    As our team redeployed out of Afghanistan, we outbriefed 
the field commanders, enabling the command to initiate some 
immediate corrective actions. While CSTC-A was making progress 
on accountability, we recommended that the CSTC-A issue policy 
guidance specifically for accountability control and physical 
security of munitions at the----
    Mr. Lynch. Could the gentleman pull the mic a little bit 
closer to him?
    Mr. Gimble. Further, we recommend that CSTC-A----
    Mr. Lynch. Is your mic on?
    Mr. Gimble. It is.
    Mr. Lynch. OK.
    Mr. Gimble. Further, we recommend that CSTC-A develop a 
formal strategy with detail implementing guidance for mentoring 
Afghanistan Ministries of Defense and Interior on 
accountability and control, physical security of U.S.-supplied 
munitions. CSTC-A also needed to ensure that the weapons' 
serial numbers had been recorded accurately and then reported 
to the DOD Small Arms/Light Weapons Serialization Program.
    The U.S. Foreign Military Sales Program has historically 
functioned as a peacetime security assistance program. However, 
in Afghanistan, the United States is using FMS as the principle 
means to equip, expand, and modernize the Afghan Security 
Forces during wartime conditions. Commanders have noted that 
progress had been made in improving the responsiveness of the 
FMS process in support of Afghanistan.
    However, we recommended that a wartime FMS process and ties 
will be established. In addition, we recommend that the number 
of personnel assigned to the CSTC-A security assistance office 
and the rank of the leadership be increased to be commensurate 
with the mission, size, and scope of the FMS effort in 
Afghanistan.
    The ability of the Afghan Security Forces to operate 
independently partially relies on developing adequate 
logistical support for fielded military and police units. To 
accomplish this, we recommend a single integrated logistics 
sustainment plan be developed in coordination with the 
Afghanistan Ministries of Defense and Interior that links 
tasks, milestones, and metrics to those offices responsible for 
each action. Further, a formal mentoring strategy for achieving 
Afghanistan Security Forces logistics sustainability also needs 
to be developed.
    Independent Afghanistan Security Force operations also 
depend on the healthcare system that provides field-level 
combat casualty care, evacuation of casualties, rehabilitation 
support, and long-term care for disabled personnel. To help 
accomplish this, we are recommending the development of a 
comprehensive, integrated, multi-year plan to coordinate U.S. 
efforts to build a sustainable Afghanistan Security Forces 
healthcare system. Also, the medical mentoring teams needed to 
be fully resourced, adequately trained, and supported with the 
interagency reach back capability.
    In response to our assessment, the U.S. Central Command and 
CSTC-A did initiate a number of corrective actions. A few 
examples would be the Central Command issued formal guidance 
enhancing munitions accountability and control within its area 
of responsibility. CSTC-A updated its standard operating 
procedures on munitions accountability and control.
    It also initiated formal procedures to ensure that serial 
numbers of weapons provided to Afghan Security Forces are 
recorded in the DOD Small Arms/Light Weapons Serialization 
Program. Central Command has initiated action to increase the 
number of personnel within the security assistance office.
    Finally, CSTC-A has developed a strategy to improve the 
logistics, mentoring, communication, and coordination by 
linking the support of the Afghan Security Forces at the 
tactical, operational, and strategic levels. CSTC-A and the 
Central Command also agreed to support improved training for 
medical mentors that are going to be deployed to Afghanistan.
    We are trying to send the assessment team back to 
Afghanistan in March to review the status of the corrective 
actions undertaken as a result of our report. We also plan to 
assess the efforts to train, equip, and mentor the expanding 
Afghan Security Forces.
    Finally, I would note that General Petraeus requested that 
we continue assessing the area of weapons accountability in a 
letter to us in January this year.
    I thank the committee for the opportunity to discuss our 
ongoing efforts and be prepared to answer any questions you may 
have.
    [The prepared statement of Mr. Gimble follows:]

    [GRAPHIC] [TIFF OMITTED] T4912.014
    
    [GRAPHIC] [TIFF OMITTED] T4912.015
    
    [GRAPHIC] [TIFF OMITTED] T4912.016
    
    [GRAPHIC] [TIFF OMITTED] T4912.017
    
    [GRAPHIC] [TIFF OMITTED] T4912.018
    
    [GRAPHIC] [TIFF OMITTED] T4912.019
    
    [GRAPHIC] [TIFF OMITTED] T4912.020
    
    [GRAPHIC] [TIFF OMITTED] T4912.021
    
    [GRAPHIC] [TIFF OMITTED] T4912.022
    
    [GRAPHIC] [TIFF OMITTED] T4912.023
    
    [GRAPHIC] [TIFF OMITTED] T4912.024
    
    [GRAPHIC] [TIFF OMITTED] T4912.025
    
    [GRAPHIC] [TIFF OMITTED] T4912.026
    
    [GRAPHIC] [TIFF OMITTED] T4912.027
    
    [GRAPHIC] [TIFF OMITTED] T4912.028
    
    [GRAPHIC] [TIFF OMITTED] T4912.029
    
    [GRAPHIC] [TIFF OMITTED] T4912.030
    
    [GRAPHIC] [TIFF OMITTED] T4912.031
    
    [GRAPHIC] [TIFF OMITTED] T4912.032
    
    [GRAPHIC] [TIFF OMITTED] T4912.033
    
    [GRAPHIC] [TIFF OMITTED] T4912.034
    
    [GRAPHIC] [TIFF OMITTED] T4912.035
    
    [GRAPHIC] [TIFF OMITTED] T4912.036
    
    [GRAPHIC] [TIFF OMITTED] T4912.037
    
    Mr. Tierney. Thank you Mr. Gimble.
    Mr. Schneider, if we might hear from you, please.

      STATEMENT OF MARK SCHNEIDER, SENIOR VICE PRESIDENT, 
                   INTERNATIONAL CRISIS GROUP

    Mr. Schneider. Thank you very much, Mr. Chairman.
    Mr. Chairman, members of the subcommittee, I want to thank 
you for the opportunity to testify today on behalf of the 
International Crisis Group, but even more for your continuing 
focus on these key issues relating to Afghanistan and Pakistan, 
because they will determine whether or not we will succeed or 
fail in combating Al Qaeda and the Taliban.
    If I might, I would like to begin, if I could, with just a 
brief comment about the final phrase in the title of today's 
hearings, strategic challenges, because the international 
community does face strategic challenges in building competent 
and effective security forces and in stemming the increasing 
ability of the Taliban and the Al Qaeda allies who threaten the 
lives of the Afghan people and the security of Afghan state 
institutions, as we tragically saw yesterday, and thus once 
more pose a direct danger to the United States and the West.
    Strategic incoherence and inadequate coordination, here in 
Washington, in Kabul, within the U.S. military, between the 
military and civilian government agencies, and between the 
United States and its international partners in Kabul are fatal 
to success in confronting the Taliban insurgency. The results 
of that strategic chaos have played out across Afghanistan over 
the past 7 years.
    Just this last month, actually, the Security Council 
returned for a trip to Afghanistan and it reiterated a report 
that some 7,000 security incidents had occurred in the first 10 
months of 2008. That compared to 508 in 2003.
    The U.N. also reported that in September, 13 districts were 
under the control of the Taliban. Another 90 were under extreme 
risk. Extreme risk means that neither the U.N. nor the Afghan 
government can undertake reconstruction activities in those 
districts at all. Now there are an additional 90 that are--
additional number that are at high risk--I think there is a 
map.
    This was the situation in 2003. All of the blue were low 
risk areas where you could carry out, independently, 
reconstruction activities. The yellow were medium risk and the 
salmon were high risk. And then if we can see, that--no, go 
back to that following map to show quickly the difference. The 
second map, please.
    That one. That shows you the difference. All of the salmon 
colored districts are now dubbed extreme risk, meaning no 
reconstruction activities can be independently carried out 
there, and the light pink go back to the high risk. The U.N. 
had to divide high and extreme risk because of the increased 
inability to carry out activities. And the fact is that at this 
point, every international observer, every U.S. military 
commander from General Mullen to Secretary Gates has agreed 
that the situation is deteriorating.
    In fact, General Petraeus said a few weeks ago that the 
situation has deteriorated markedly in the past 2 years, and 
the reason is worsening security, escalating corruption, and 
higher levels of opium trafficking. And that is why it is 
crucial--you said in your beginning statement--that we begin to 
get a clear overall unifying strategy.
    General Fields, the new Special Inspector General for 
Afghanistan Reconstruction, said that there is no overarching, 
unified strategy for Afghanistan. Unless we have that strategy 
that covers security, governance, reconstruction, with 
transparent benchmarks, there is no way that we are going to be 
successful in helping the Afghan government achieve the level 
of security and reconstruction necessary to essentially defeat 
a still very active, very well financed insurgency.
    Now let me just note if I could, Mr. Chairman, that we do 
have information that there are, as you have heard, three 
reports under way to put together a strategy, and I gather that 
the president has asked the Security Council to coordinate a 
single report and set of recommendations from those three, and 
I think that is crucial. We think that is absolutely essential, 
to have a single overarching strategy with benchmarks and that 
the Afghan government buys into and that we all are held 
accountable for.
    Now if I could, I will just turn quickly to the police 
report that you mentioned and that we wanted to focus on, and I 
will discuss our findings. You have heard some of them 
mentioned here today.
    Our first report in August 2007 indicated total collapse of 
all the efforts to produce a functioning Afghan National 
Police. The GAO conducted an excellent study last year which 
noted that despite the appropriations of $6 billion, none of 
the 433 police units at that point were fully capable of stand 
alone performance.
    The good news, I understand, is at the end of this year, 
that first column, which indicates the various units--that is 
the uniform police districts, the border police battalions, 
civil order police battalions, counter-narcotics units, a total 
of 433--at the time that the first study was done, none were 
fully capable. Now I understand that some 18 are. But even so, 
we are talking about 18 out of 433, and very few at the 
district level. That is mostly ANCOP, that is the civil order 
battalions.
    Now let me just add here that while there have been 
positive developments, you have a new Interior Minister, a new 
Attorney General, a new European Union Police Commander, and 
you have the Focused District Development Program, which I 
think has some chance of succeeding if the resources necessary 
are brought to bear in order to carry out that program.
    Just this last month, the U.S. Commander said that he 
lacks, with respect to the police, 2,300 trainers and mentors. 
That is at least more than a third of what he needs to carry 
out the task of training the police. And I think it is 
important, as you have heard from my two colleagues, if you 
don't have effective command and control over those police 
forces and you don't have systems in place, those weapons are 
simply not going to be able to be secured.
    And let me just note one other point here. This is, again, 
in our last report. There are 80,000 police names on the roster 
that are being paid, mostly by the United States, but by the 
international police fund. On any given day, 20 percent of 
those supposed 80,000 police officers are absent from duty. 
Another 17 percent listed on the rolls are actually the names 
of dead or wounded police officers as a means of providing 
pensions and benefits to the family.
    The question is, of those who are--let's say somewhere in 
the neighborhood of 20,000 to 30,000 police who are not there--
the U.N. actually says there are about 55,000 police in the 
field--the question of where those weapons of those police went 
is a significant question. There is one other question. The 
reports that have been done refer to the Afghan Security 
Forces. What about the auxiliary police, the 11,000 that were 
started up 2 years ago, only 3,000 of whom currently are found, 
and I mean found. Were they given weapons? If so, where are 
they?
    And finally, there is a proposal now to startup a new 
community guard program outside of the structure of the police 
in the Pashtun areas. Without going to the question of the 
rationale for doing that as opposed to devoting your resources 
to in fact staff up, train, and mentor and equip the Afghan 
National Police effectively, the question is are those weapons 
being given to those guards and those communities--are they 
being monitored and controlled? I should also note they are 
actually getting paid more than the local Afghan police. We 
have serious questions about that program.
    So what do we say in terms of what needs to be done? First, 
the fundamental issue is focusing on police as police, not as 
war fighters. Their role is to uphold the law and fight crime, 
not to fight wars. Putting police in the front lines against 
the Taliban has resulted in three times more police than army 
troops killed last year. That not only hurts morale, but it 
obviously hurts recruitment. It makes it very difficult to 
maintain a successful police force.
    The basic requirements for reversing these conditions begin 
with ensuring that police reform occurs within the larger 
state-building effort, that you clearly define and respect the 
roles and responsibility of the police, military, intelligence 
agencies, that you ensure that the international police and 
coordination board, which is shared by the Ministry of Interior 
with international involvement, including us, that it does--is 
permitted to coordinate policy and that there is parallel 
reforms in justice as well.
    This is essential. If we don't build the police, we are not 
going to have a rule of law, we are not going to have an 
effective government, and we are not going to succeed in 
confronting the insurgency.
    Thank you Mr. Chairman.
    [The prepared statement of Mr. Schneider follows:]

    [GRAPHIC] [TIFF OMITTED] T4912.038
    
    [GRAPHIC] [TIFF OMITTED] T4912.039
    
    [GRAPHIC] [TIFF OMITTED] T4912.040
    
    [GRAPHIC] [TIFF OMITTED] T4912.041
    
    Mr. Tierney. Thank you, Mr. Schneider, thank all of the 
witnesses for your testimony. We are going to proceed at this 
point in time to questions from the panel.
    For all of you, it seems that--we certainly thought that 
the lessons of Iraq would be carried over to Afghanistan 
without much difficulty. It seemed to be common sense that you 
would want to make sure you knew where your weapons were going.
    And I note that on the Government Accountability Office 
report, Mr. Johnson, you say that in January 2009, just earlier 
this year, Defense directed the Defense Security Cooperation 
Agency to lead an effort to establish a weapons registration 
and monitoring system in Afghanistan consistent with controls 
mandated by Congress for weapons provided to Iraq.
    So if they follow through on that, you would think that at 
least that portion, of which the United States has direct 
control over the weapons, can be rectified and taken care of. 
Weapons flown into Kabul would then get the serial numbers at 
that point in time, monitor the transportation, which was not 
being done--monitor the transportation from the airport to the 
two storage facilities, one for the army and one for the 
police, maintain it securely, and keep an inventory and do 
regular inventory checks while they are there, and then when 
they are distributed, I think that becomes the problem. Would 
you agree?
    Mr. Johnson. Yes, I think if that was implemented, that 
goes a long way toward what we have called for. What is 
missing, though, from our interpretation of the NDA 
requirements is that there is no requirement for routine 
physical inventory. We think that is significant, that needs to 
be done to deal with the issue of port security and potential 
theft and loss of those weapons out of the storage depots.
    Mr. Tierney. So taking inventory periodically during the 
time that they are stored in those depots? Makes sense.
    Mr. Johnson. Correct, that is the one additional thing.
    Mr. Tierney. And I think we should be able to do that. In 
conversations with General Formica and his staff, they seem to 
be on that and ready to implement, even though they do run into 
difficulties there in terms of staffing, and they weren't able 
to give us any assurances that they would continue to have 
adequate staff to do that.
    And then we run into the problem of the Afghan forces. If 
they are going to supplement that, we run into illiteracy 
problems and numeracy problems on that, problems of people not 
showing up for work, people leaving after they have been 
trained, corruption. We noticed in I think Mr. Schneider's 
report as well as others that oftentimes it was the police 
chief that was mentioned of the logistics officer locally that 
was mentioned in corruption reports. So weapons may be going 
out the door for monetary compensation at that level.
    As Mr. Schneider says, people are leaving after they have 
the weapons, just leaving the force and taking the weapon with 
them. We had incidents reported to us, a cultural thing I 
suspect, is that when people came in with their AK-47, throw it 
on a pile, go have lunch, come back out, take any AK-47. So it 
is a little tough to check the serial numbers that were on 
that, because that is a way that they are done.
    So knowing that we have all those difficulties and 
difficulties in securing the weapons once they are in the 
police's and army's hand, corruption, etc., what are your 
prospects? What do you think the prospects are for getting a 
handle on this to gain assurance that weapons can be accounted 
for all the way through, and what timeframe do you think is 
going to be involved in getting to that point in time?
    Mr. Johnson. If I may--and I think my colleagues would 
agree, but they can weigh in--I think the key to success or 
some progress in this area is the fulfilling of the military 
personnel shortages. I think until that is addressed, I really 
don't think that CSTC-A, in terms of its ability to complete 
its objective or training or mentoring the Afghan Security 
Forces in getting this done could be accomplished.
    Mr. Tierney. Well like so much else, I'm interrupting your 
question, Mr. Gimble, here on that. But like so much else, we 
had testimony last year that told us that they were 2,500 
short, at least, on mentors, and much more when it came to 
trainers. They were all in Iraq, like so much else had been 
diverted instead of having a focus on Afghanistan. Do we see 
any signs of that changes, of those numbers increasing with any 
systematic approach to it?
    Mr. Johnson. Well we do understand, and we do have some 
ongoing work underway looking at the efforts to reform the 
Afghan National Police in particular. And we know that 
currently the situation is that there are really no dedicated 
resources for the training of the police. They are taking 
resources from the efforts to train the army to actually 
undertake the efforts to train the police.
    So obviously I think with the plans going forward, that is 
a policy decision in terms of where these additional resources 
that are slated to come to Afghanistan are going to be put. We 
do know that CSTC-A has made a request for specific forces to 
fill these particular positions.
    Mr. Tierney. And CSTC-A envisions, from what they were 
telling us, some 14 to 16 mentors and people out in each team 
with each district police department as they go out to mentor 
and stay there for security purposes so they can do the 
policing work, and they were well short of that.
    Mr. Johnson. That is correct, Mr. Chairman.
    Mr. Tierney. So Mr. Schneider, that leads me to the 
question. You mentioned in your testimony that we are not doing 
an effective job of looking through our National Guard troops 
for people who are police and do have some background in law 
and order and sort of integrating them or transferring them to 
these positions. Do you see any movement in that area?
    Mr. Schneider. Well I must admit, Mr. Chairman, that I have 
asked several people in the military about this. They all 
agree, obviously. There are some 675,000 civilian police around 
the United States in different places. A good 10 percent, at 
least, they estimate, if not more, are in the Reserves or in 
the National Guard.
    But they are not formed in police training units. They have 
signed up for doing other things in their Reserve, whether it 
is driving trucks or being infantrymen. And the question is is 
whether or not they would have to change their contract. And I 
suggested that--the President of the United States said that if 
this is important for national security, that some way would be 
found for the contracts to be changed. But there is no way this 
is going to succeed if you don't get those trainers and mentors 
out there.
    Mr. Tierney. Russia spent 10 years in Afghanistan trying to 
do the same thing we are trying to do, buildup the Afghan 
National Security Forces, and they failed. What are the 
prospects, on a zero to 100 scale, each of the witnesses, 
quickly, you think that we have to succeed in the next 3 to 5 
years? Mr. Johnson.
    Mr. Johnson. Mr. Chairman, we were here last June and we 
reported on the limited numbers. One--I think it was two for 
the Afghan National Army being fully capable and none, as Mr. 
Schneider has mentioned, for the police. We are aware that 
there has been some progress made in both the areas. So under 
some of the revised training efforts like the Focused District 
Development Program, which you seem to be aware of when you 
mentioned the police mentor teams, they are making progress.
    But again, I go back to the point that unless those 
military personnel are provided to success and continued 
success in terms of furthering--make progress in their area, it 
will be a challenge.
    Mr. Tierney. Mr. Gimble.
    Mr. Gimble. I would agree with Mr. Johnson. But I think the 
challenge will be is that there can be progress, there will be 
progress made. Now when you put it in absolute terms of 100 
percent success, I am not prepared to have an opinion on that 
at this point. But I do think there is increased emphasis and I 
think that is good, and there are just going to be a lot of 
challenges ahead.
    Mr. Johnson. If I may jump back in again, one other point. 
Again, going back to when we made this point in June when we 
did the work for your subcommittee then, we made a specific 
matter for congressional consideration, and that dealt with the 
fact that we felt like there needed to be a coordinated, 
detailed plan between the U.S. Department of Defense and State 
Department to make sure that we have sufficient milestones and 
benchmarks to measure progress, and we have not seen that. 
Again, I think that is still an integral part of going forward 
that needs to be addressed.
    Mr. Tierney. Thank you. Mr. Schneider.
    Mr. Schneider. I'm afraid I'm going to be even more 
pessimistic. Unless there is a major change--because you are 
not going to be able to--even if you get the trainers, you are 
not going to be able to succeed in establishing an effective 
police force if the rest--if it's alone. It has to be part of 
an overall process of expanding the capacity of the government. 
If you just have the police and judges throw out everybody that 
they arrest and--it is not going to work. So it needs to be 
part of a rule of law.
    Now do I think it is possible to increase that number on 
the board from, let's say, 18 to 100? Yes, I think it is. And I 
think that we need to find a way to have a benchmark, sort of a 
critical path that says ``In 3 years we want to be here. What 
do we have to do to get there?'' And if that means 3,000 police 
trainers and mentors on the ground 3 months from now, then we 
have to figure out how to do it.
    Mr. Tierney. Thank you very much. Thank all of you. Mr. 
Flake, you are recognized.
    Mr. Flake. I thank the chairman and the witnesses.
    Mr. Johnson, you mentioned the importance of inventory with 
the depot, saying we don't seem to have a problem with the 
munitions and the arms as they go from transport to the depot, 
and you recommend inventory that we haven't been doing. Does 
that inventory just apply to the arms there in the depot or in 
those warehouses, or an inventory of those that have gone out 
and that they can keep track of?
    Mr. Johnson. Well a couple points in response to that.
    One, there is actually a problem before it even gets to the 
source depot. The equipment is flown in to Kabul, and what we 
discovered--and the team that went there, what we discovered 
was that once it gets in Kabul, there is no shipping manifest 
of CSTC-A to actually do inventory to make certain that it 
received what it should have received. So even before it gets 
to the storage depot there is a weakness there.
    In addition, the U.S. basically hands over custody, or the 
Afghan forces actually deliver the equipment to the storage 
depot. So we basically do not retain custody, even though I 
believe at that point--correct me if I'm wrong, counsel--we 
have title of the equipment. We give it over to the Afghan 
security force to actually transport it to the source depot, 
which we are managing the source depot even though it is 
intended for the Afghan Security Forces to benefit.
    So there are a couple of things here where we see some gaps 
and weaknesses. Yes, there is a critical point, but we think it 
needs to be at least checked when it comes in country as well 
as full inventory done routinely at the storage depot.
    Mr. Flake. But in terms of inventory once it goes out in 
the field, this inventory you are talking about doing, that 
would entail keeping track of those that are in the field 
through serial numbers, that at a certain point, a certain 
date, they have to account for those as well?
    Mr. Johnson. At a minimum, what should be known as a record 
of the location and disposition of those items. If you deliver 
it to the Afghan Security Forces or somewhere else, then at 
least having a record of where it went to is important, and 
that did not exist.
    In addition, when we talk about sensitive devices such as 
the night vision devices we mentioned earlier, there was no 
inventory of those. There is an enhanced end-use monitoring 
requirement for those specific devices because they have 
sensitive technology, and that was not done prior to us coming 
to Kabul.
    Mr. Flake. Mr. Schneider mentioned the auxiliary forces, 
different units completely, and that there is no accounting for 
the weapons that were issued there. Do you have any idea?
    Mr. Johnson. Well we did not specifically look at it by 
unit, by police unit. In particular, we do know, sort of--
somewhat of an update, that there were plans--again, I 
mentioned that we have someone going to look at reform of the 
police. The auxiliary police forces are being folded within the 
rest of the Afghan National Police Forces through a vetting 
process that they are going through. So specifically with 
respect to their specific equipment, we cannot look at it by 
unit, but as a whole.
    Mr. Flake. Mr. Schneider, you mentioned that the attrition 
rate for the Afghan police was 21 percent or so, another 17 
percent on the rolls that may or may not be active. What is the 
attrition rate for the Afghan army?
    Mr. Schneider. I don't have that----
    Mr. Flake. I seem to recall when I was there that was a 
similar figure, in the 20 percent range.
    Any, I would think, serious inventory would require a lot 
of coordination with the Afghan government, obviously, and 
cooperation. Do you see that imminent? You don't seem to be 
very optimistic that is coming.
    Mr. Schneider. I think that you have identified one of the 
fundamental issues here, which is that there has to be an 
absolute marriage between our efforts to stand up and to train 
and equip the Afghan National Security Forces, police and 
military, and the Afghan government in terms of their goals and 
their determination to have an independent, non-corrupt police 
force. And as the chairman mentioned, until we get the 
satisfaction that they are not naming police chiefs who are 
linked to drugs, as one example, this is not going to work.
    And I should just add on that point, there is a body which 
was designed and agreed to by the Afghan government and the 
international community called the Senior Appointments Review 
Commission, I believe, and that was designed to, in a sense, 
have an opportunity to weed out these individuals before they 
are named. That body has been almost defunct. That is the kind 
of institutional mechanism that we need to say ``If we are 
going to continue providing this support, that has to be there, 
and it has to be acting to prevent corrupt police chiefs from 
being named.''
    Mr. Flake. If you will indulge me, Mr. Gimble, what should 
the remedy be if we don't get that cooperation and we still 
find that we are unable to account for the weapons that are 
issued? What should the remedy be? What are our choices?
    Mr. Gimble. Well my version of the accountability goes like 
this. There are a couple of levels.
    The part that Mr. Johnson talked about is the chain of 
custody from receipt in the country to the depot, and I totally 
agree with his analysis of that. The breakdown is there, but I 
think the issue of the weapons that have already been issued 
out, what we have to do there is we have to train our mentors 
out there to have the Afghans determine their own system of 
accountability, and we need to have a record of where we turned 
the weapons over to an Afghan unit.
    But we also have a responsibility to have the Afghans to 
have their own accountability system for trying to develop 
their capabilities, the army or the police, and that will be 
one of the parts of the plan. And we talked about the strategic 
plan, and I'm going to be a little bit more narrow focused than 
that.
    But in the CSTC-A arena, we had been critical in our report 
of October that there was no central plan for logistics, 
sustainment, and what have you. There were seven draft plans 
out, and we recommended that they get a single integrated plan 
that would bring this together.
    What part of that plan would be, as we have done in Iraq 
when we looked at weapons accountability there, we have 
actually gone back down and followup and go down to the units 
when there was handoff in inventory to the Iraqi storerooms to 
see what kind of accountability they had. We have a team going 
back into theater in March, and one of the tasks will be 
hopefully that we can get down to some Afghan units to see how 
well we are encouraging them to develop their own 
accountability systems.
    Mr. Flake. Thank you.
    Mr. Tierney. Thank you Mr. Flake. Mr. Driehaus, you are 
recognized for 5 minutes.
    Mr. Driehaus. Thank you Mr. Chairman.
    I got to tell you, as a new member of this committee, I am 
very disturbed by this report, and I think the average American 
would be very disturbed by this report. You would think that 
given the experience in Iraq, we would certainly have the 
systems in place to track these weapons.
    I guess I have a couple of questions. First of all, give me 
the worst case. I'm sure we are all looking at this from the 
worst case scenario. Are these weapons falling into the hands 
of the Taliban or Al Qaeda, and is there any evidence to 
suggest that in fact has happened? Despite all the various 
concerns we have in terms of tracking and monitoring, do we 
have any evidence that in fact these weapons are getting into 
the hands of hostile forces?
    Mr. Johnson. There are reports that we have looked at, some 
of the mentor reports, the contract mentor reports that are 
done when they actually do some of the assessments of the 
Afghan Security Force's capability to account for things. Some 
of those reports have had some allegations that reported the 
theft of weapons and potentially weapons being sold to enemies.
    Mr. Driehaus. I guess given that, when I look at this 
tracking system as it has been described, is there a better way 
to do this? Not just in accounting and putting the necessary 
personnel in place to make sure that we are monitoring and 
accounting for the weapons as they move forward given the 
serial numbers. But, you know, we all have cell phones here 
that can be tracked quite easily using sophisticated 
technology. Is there better technology that the military could 
be using in order to track their weapons rather than the serial 
numbers that they are currently using?
    Mr. Gimble. I'm not aware of a better one. I think there 
has to be discipline in the system. And if you go back and 
compare the U.S. military and how they track the serial number 
and what have you, it works very well, there is accountability 
control.
    What we have here in this--and part of the challenge here 
was that--and going back, when you talk about Iraq and 
Afghanistan, some of the reasons that we didn't learn the 
lessons and carry them over to Afghanistan, because they were 
happening at the same time. And the problems that you had in 
Iraq with weapons accountability, you had the same problems 
happening in Afghanistan at the same time.
    So I think the other part of the challenge is a lot of 
these weapons that we are getting the serial control on, is 
there was never agreement. There was a lack of understanding on 
the part of the folks in theater that the DOD accountability 
rules applied.
    And you mentioned, Chairman, in your opening remarks about 
the Undersecretary of Defense's letter of August 2008. Well 
that actually was a result of our first report, and what that 
really says, in my view, is that he is telling the people in 
theater that the DOD policies and procedures that we go by 
apply to all the weapons that we buy with U.S. moneys. And that 
was kind of a point of misunderstanding up until then. As a 
result of that, now we have been able to start moving forward 
with the good policies.
    There is a next challenge to that. Now you can have a great 
policy, but you got to have implementation. One of the 
challenges in Afghanistan, when I was over there, was that they 
did have what they called a core INS, a cell phone tracking 
system. The problem there was it wasn't being very well input 
and there was no quality assurance that you didn't have 
duplicate numbers.
    There is another challenge. A large number of these weapons 
coming in are Eastern block weapons, AK-47s, and they don't 
have the serialized discipline that the U.S. arms manufacturers 
have. You have a lot of duplicate numbers, non-number 
characters that the systems won't pick up, so part of the 
challenge of getting control of this is determining how to best 
deal with those kinds of issues too.
    So it is a real challenge to get back out and recreate 
this. But I think there is efforts on the way, and we are 
hoping to go back in March and see some progress in that area.
    Mr. Driehaus. I think, finally, Mr. Chairman, that we all 
understand the necessity to be arming the security forces and 
the police forces in Afghanistan, but there is, I think, a very 
real question as to whether or not we should continue given the 
problems that you have identified. It doesn't make sense that 
we would continue to deliver weapons into the country without 
having these systems in place, and should we stop delivery of 
weapons for a certain period of time until we are assured and 
the taxpayers are assured that in fact the systems are in 
place?
    Mr. Johnson. I think the plan going forward is actually to 
do that. Defense has agreed to implement our recommendation, 
has already taken steps to do so. We are aware that in 2008 
there was a recommendation that more needs to be done by the 
commanding general.
    There was a policy implemented for the police in particular 
that no weapons could be issued to the police without assurance 
that they are able to properly account for and safeguard those 
weapons. We have not went back in to specifically test that, 
but that was their new policy.
    And under their new Focused District Development Program, 
their training effort, that is a part of that whole effort, 
where they are training as a unit and then trying to ensure 
that they have sufficient controls in place to safeguard and 
account for weapons.
    Mr. Driehaus. Thank you, Mr. Chairman.
    Mr. Tierney. If I might just ask something.
    Congress passed a law regarding Iraq, asking for a 
certification before the arms went out, as to the status on 
that. Has anybody been back, either the Inspector General's 
Office or the GAO to see how that is going in Iraq?
    Mr. Gimble. We had a number of those recommendations. You 
passed the legislation, I think, when we had come back from a--
let me just give you kind of an update on what we saw last 
year. When we went in in 2007, we made recommendations to list 
the serial numbers of weapons on the outside of the cases, have 
the manifest that Mr. Johnson was talking about provided into 
the receiving area.
    So last May we were able to--I actually led the team back 
over there. We went out an inventoried weapons at Abu Ghraib. 
We looked at the serial numbers on the outside of the case, 
opened some of the cases and counted them, had a pretty good 
accuracy rate.
    We went down also--we back into the Iraqi areas like in 
Baghdad Police College and some of the police colleges up in 
Kurdistan and inventoried weapons on hand there both in the 
arms rooms and then also in the--in Baghdad Police College 
there is a central storage place for the police. And while they 
weren't perfect, there was a lot of progress being made, and 
there was some accountability being established. Now we intend 
to go back again to followup on those by going back into the 
things.
    Our Afghanistan part of that trip was initially--well 
actually we went to Depot 1 and 22 Bunkers. We did not, on that 
trip, get to go down to any of the Afghan units. That is what 
part of this issue will be when we go back next month is we 
want to go down--go back out to 22 Bunkers, Depot 1, and then 
also go to some of the forward deployed units to see what kind 
of accountability----
    One, do you have accountability when it is in U.S. 
possession as it is turned over to the Afghans, and then what 
kind of revisions are we making to have them establish some 
kind of accountability and control, recognizing there has to 
be--well a good way of doing business, but there should be some 
thought of accountability for the weapons and munitions that we 
provide.
    Mr. Tierney. Thank you Mr. Gimble.
    Thank you for your indulgence, Mr. Duncan. You are 
recognized for 5 minutes.
    Mr. Duncan. Thank you Mr. Chairman.
    According to the Congressional Research Service, we have 
spent $173 billion in Afghanistan since 2001, and as far as I'm 
concerned, it is pouring money down a rat hole. It is a 
complete waste. I think if there are any fiscal conservatives 
left in the Congress, they should be horrified by the waste 
that is going on over there.
    General Petraeus said in an article in the Washington Post 
3 days ago that the situation in Afghanistan, despite all this 
money, has deteriorated markedly in the past 2 years--those are 
his words. And he said this, he said Afghanistan has been known 
over the years as the graveyard of empires, and if we are not 
careful, it is going to help be the graveyard of our empire as 
well.
    Professor Ian Lustick of the University of Pennsylvania 
wrote recently and said--he talked about the money feeding 
frenzy of the war on terror and he wrote this, ``Nearly 7 years 
after September 11, 2001, what accounts for the vast 
discrepancy between the terrorist threat facing America and the 
scale of our response? Why, absent any evidence of a serious 
terror threat is the war on terror so enormous, so all-
encompassing, and still expanding?''
    ``The fundamental answer is that Al Qaeda's most important 
accomplishment was not to highjack our planes but to highjack 
our political system for a multitude of politicians, interest 
groups and professional associations, corporations, media 
organizations, universities, local and state governments, and 
Federal agency officials, the war on terror is now a major 
profit center, a funding bonanza, and a set of slogans and 
soundbites to be inserted into budget, project, grant, and 
contract proposals. For the country as a whole, however, it has 
become a maelstrom of waste.''
    And I just don't see where the national debt of 
$11,315,000,000, an incomprehensible figure--and now the GAO 
tells us over $55 trillion in unfunded future pension 
liabilities--it is just not going to be long at all before we 
are not going to be able to pay all of our Social Security and 
Medicare, veteran's pensions, and all the things we have 
promised our own people if we don't stop spending money in 
ridiculously wasteful ways. And of course, what does the 
Defense Department tell us, just as they always do, what they 
want is more money to spend over there and more troops.
    Bruce Fine, who was a high ranking official of the Reagan 
administration wrote just a few days ago in the Washington 
Times that it is ridiculous that we have troops in 135 
countries and approximately 1,400 military installations. And 
he said we should redeploy our troops to the United States. He 
said no country would dare attack our defenses and our 
retaliatory capability would be invincible. Esprit de corps 
would be at its zenith because soldiers would be fighting to 
protect American lives on American soil, not Afghan peasants. 
The redeployment within the U.S. casualties in Iraq, 
Afghanistan, and elsewhere, it would end the foreign 
resentments our enemies created and intended killing of 
civilians and the insult to pride excited by foreign 
occupation.
    At the end of this column, he is saying the American empire 
should be abandoned and the republic restored. The United 
States would be safer, freer, and wealthier. And I can tell 
you, I agree with him.
    It is just like this stimulus that we are dealing with. 
There are a lot of good things in that stimulus package, but I 
can tell you this, we can't afford it. I wish every family in 
this country could have a million dollar mansion and drive a 
new Cadillac or Mercedes, but they can't afford it. And we are 
on this addiction to spending, and we go in for these short 
term fixes that will satisfy for a while, but they are going to 
cause us serious trouble later on. If a family is deeply head 
over heels into debt, they don't go out and just immediately 
double or triple their spending, or they get in even worse 
trouble.
    And I hate to say it, because I'm not a pacifist and I 
consider myself to be very pro-military, but the Defense 
Department has turned into the department of foreign aide, and 
has become the most wasteful department probably in the entire 
Federal Government. And fiscal conservatives should be the ones 
most upset about that.
    Thank you, Mr. Chairman.
    Mr. Tierney. Thank you Mr. Duncan. You will be pleased to 
know that we intend to look into many of the matters that you 
mentioned this year. I don't think that there is widespread 
disagreement amongst members of this panel at least.
    And we see it as part of our oversight responsibility, 
taking a look at those 150,000 bases and their mission and 
their impact on that as well as all the procurement issues that 
the Government Accountability Office reported on last year, 
$275 billion for potential waste in contracts over schedule and 
over budget. So we will be doing all of that and appreciate 
your cooperation with that.
    Mr. Duncan. Thank you.
    Mr. Tierney. Mr. Lynch, you are recognized for 5 minutes.
    Mr. Lynch. Thank you Mr. Chairman. I want to thank the 
ranking member as well, and I appreciate the witnesses for 
helping us with our work.
    Mr. Gimble, we had a similar problem a couple years ago, as 
you mentioned, in Iraq. I think we had 191,000 weapons go 
missing, most of them small arms. But in response to that 
problem, myself, Mr. Platts, a number of investigators from 
this subcommittee, actually, want in to Taji weapons depot in 
Iraq, and basically DOD had a good program in place.
    As the Iraqi security forces were coming out of training, 
they had a building there at Taji, when they were assigned a 
weapon, the serial number was recorded--they had four laptop 
computers in the central facility there at Taji. The 
individual, whether it was a soldier or it was a security 
officer or police officer, they had their picture taken with 
their weapon and it did a pretty good job. A little late, but 
it did a good job.
    Why don't we have this system in Afghanistan? It seemed to 
be very cost effective, and let's face it: Afghanistan is a lot 
poorer than Iraq. Most of these young men--that is basically 
what we are talking--and older men are getting assigned a 
weapon that is probably as valuable as anything that they own 
in their household, and we have some corruption issues, some 
big corruption issues there, as you well know. Not as much with 
the ANA as we do with the police, but you have all these issues 
here. It is almost a certainty we are going to have a problem 
here unless we put something in place to address it.
    So I've got to ask you, why didn't we just take the good 
system that you have going on in Iraq and apply it to 
Afghanistan?
    Mr. Gimble. As a matter fact, that is a good question. We 
hope to address some of those issues when we go back in March.
    I would just add, though, on the Iraqi side, they also put 
in some provisions that if you lost a weapon such as a glock, 
they would actually fine the people about a year's salary.
    Mr. Lynch. Right.
    Mr. Gimble. That was the Iraqi government doing that.
    I think it has to be a joint effort between the Afghan 
government and the United States, and I think a lot of that 
comes back to those mentoring teams that we need to have out 
there. I agree that the process--we need to put that in, and we 
will look at that. But that Iraq process has been a huge step 
forward.
    Mr. Lynch. Yes. Well I will be back in Taji in a little bit 
and I will be in Afghanistan in a little while as well. I'm 
going to look for some type of accountability to be inserted.
    Remember, one of the problems that--we got it right in Iraq 
eventually, and we got it right now. And you have to remember 
that CPA 3, that Coalition Provision Authority Rule 3 allows 
every Iraqi to have a weapon in their home for self defense, 
and the weapon of choice was an AK-47. So that is a pretty 
steep problem there, and they got that under control.
    There is no reason from a cost or a technology view here 
that we shouldn't be able to put some type of very responsible 
and exact system in place that will track these weapons. And 
with the expectation that our troop levels are going to be 
increased substantially there, the risk is even greater.
    Let me ask you, do we have a central weapons depot facility 
in Afghanistan that we are using or do we have multiple sites?
    Mr. Gimble. We actually have two primary ones, 22 Bunkers 
and then Depot 1.
    Mr. Lynch. Where are they sir, I'm sorry.
    Mr. Gimble. Kabul.
    Mr. Lynch. Kabul. Are all of them in Kabul?
    Mr. Gimble. They are both in Kabul, yes sir.
    Mr. Lynch. OK, that simplifies things a little bit.
    Mr. Gimble. Let me go back to Taji just for a moment. There 
is another part of the issue. When you were having the issuance 
of the weapons to the basic trainees coming out of their 
training facility, they also have a huge weapons storage over 
there and they have the captured weapons. There were some 
challenges with accountability on captured weapons. But we were 
able to go back in and inventory the supply side of the weapons 
over there last May and saw some pretty good accountability and 
some systems being developed and automating some of the what I 
call wholesale level weapons accountability, the warehouse 
operations.
    But the truth of it is that the Afghanistan process is much 
more primitive, in my personal opinion, than in Iraq.
    Mr. Lynch. OK. Thank you.
    Mr. Chairman, my time has expired. I yield back.
    Mr. Tierney. Thank you. Mr. Foster you are recognized for 5 
minutes.
    Mr. Foster. Thank you Mr. Chairman. I am also a new member 
of this committee, but this is a matter of some personal 
interest to me for actually two reasons.
    In the mid-1970's, my parents spent a year in Afghanistan 
where my father was responsible for the first and for a long 
time the only advisor on Afghan legal proceedings. He spent a 
year riding circuit in a Land Rover trying to actually get an 
appreciation for the rule of law and the value of actually 
writing down court decisions, and came away with it sort of 
skeptical, thinking that we were generations away from actually 
having what is needed from a cultural point of view of having a 
real appreciation of the rule of law. And I would be interested 
in your reactions whether we have made progress in the last 30 
years when the government there was wiped out first by the 
Russians and then the subsequent war.
    And the second reason is that the largest National Guard 
deployment coming out of my district, actually out of Illinois, 
is responsible for the training and mentoring of the Afghan 
National Police, and I want to make sure that these kids are 
kept as safe as we can.
    I would like to push a little bit. I guess this is for Mr. 
Schneider and Mr. Gimble, as to the question of whether there 
may be some technological fixes or improvements. On the sort of 
fundamental level you can easily imagine that if you are not 
sure that a policeman is out doing his rounds, that if he is 
carrying a cell phone, he can sit there and take a picture 
every 10 minutes, and it can be monitored by our wonderful 
European collaborators. And there is no reason why some simple 
thing like that can't make sure that we at least know who is 
doing their job as a policeman out on the beat.
    And there are more advanced technological things that you 
can imagine, everything up to and including having smart guns 
where this technology recognizes the owner and the gun will not 
fire unless it has been programmed to the owner. That would 
make it really hard to steal a gun and abuse it. And just 
intermediate things such as GPS tracking devices, something 
that alerts by a radio signal when the gun is fired.
    And I was wondering, is there, to your knowledge, even a 
research program that would get this technology field testable, 
and do you think it is promising?
    Mr. Schneider. I think Afghanistan remains, I think, 174 
out of 177 poorest countries in the world. The access to basic 
technology is pretty limited outside major cities. At this 
stage, I'm not sure that you would be able to use cell phones 
at all. Now Kabul is another issue. There might be an ability 
in some of the major cities.
    But I think your point is well taken. You need to look at 
all of these issues in relation to what is going to be possible 
to use to bring up the capacity of effectiveness of the Afghan 
National Police and the monitoring and oversight.
    One of the points that I made is that we are currently--if 
we train the police as their plan, it is 2 months of training. 
Even in Haiti we have 7 months of training required.
    The other is that you mentioned your father and the 
question about the rule of law. This is a civilian police 
force. It has to be seen as part of the rule of law. They are 
doing very little--I think still the government of Italy is 
responsible for the lead in the area of the judiciary and 
justice, and there is a lot more that needs to be done there. 
It all doesn't have to be Federal courts, but you need to have 
some mechanism like riding a circuit with Afghans who relate to 
those local districts.
    There is a program underway that you are aware of, the 
National Solidarity Program, and there is a new effort at the 
local government effort that is focused on the economic side 
and community action, but that needs to be linked to the local 
district police and local judiciary as well, and that still has 
yet to be done.
    Can I just make one other point, Mr. Chairman? And that is 
that in relation to this, that this is all being done--led by 
the military. The military is running civilian police in terms 
of the training. In an ideal world, it would not be the 
military responsible for civilian police training. It would be 
civilian police.
    We don't have the capacity in the U.S. Government to deal 
with the rule of law internationally in post-conflict 
situations in any kind of comprehensive fashion that would deal 
with civilian police, justice, corrections. Cops, courts, 
corrections. We can't do it all together, and we can't do it 
from the civilian side where we have the expertise.
    Mr. Johnson. If I may point out, I do want to note that the 
GAO is currently--probably in about 3 weeks we are going to 
issue a report on the efforts to reform the Afghan National 
Police, so we will be touching on some of the issues that you 
are addressing.
    But I would like to note that there is an effort on the way 
to provide each police office with a biometric ID card that has 
a smart chip in it.
    Mr. Foster. Is there any kind of cashless electronics funds 
transfer or economy in Afghanistan? I understand that, for 
example, in Africa, that is a significant part of the economy 
and it must be very powerful in reducing the corruption or at 
least identifying where it is happening. And I was wondering 
since we control a large fraction of the money that is going 
into the economy whether we could actually make progress along 
those lines.
    Mr. Johnson. Some of those things you mentioned, use of 
cell phones, those are things that are being considered, but we 
will probably address that in more detail in the report that is 
tentatively due on March 9th.
    Mr. Schneider. If I could add to that. There is an effort 
in the pay reform program to send money for the individual 
police officers to accounts that they would have access to 
rather than to their commander, who obviously traditionally 
skims off a substantial amount. So there is an effort along 
those lines.
    Mr. Tierney. Except that there are now reports of a lot of 
commanders accompanying the individual police officers to the 
bank.
    Mr. Foster. One last quick question. You mentioned, I think 
it was 17 percent of the salaries being drawn are actually for 
dead or wounded policeman. Is there a plan to actually make a 
pension program? This sounds like money that maybe is not being 
misspent, but it would be very nice just in terms of knowing 
what the actual force is. Is that going to be separated out 
into some sort of pension program?
    Mr. Schneider. My understanding is that is an issue that 
has not yet been dealt with. They have discussed the need for 
that, but so far as I know, there is not a formal program.
    Mr. Foster. OK, thank you. I yield back.
    Mr. Tierney. Thank you. We are going to do another round if 
you want to stick around for that.
    Mr. Schneider, the point was made several times here about 
``Why can't we just do in Afghanistan what we now think we are 
doing in Iraq on this?'' I want to make two points and ask you 
to respond to that.
    One is there seems to be a wholly different level of 
corruption in Afghanistan permeating the society like something 
we have never seen in Iraq or elsewhere. And secondarily, we 
have a much higher degree of illiteracy and innumeracy in 
Afghanistan than we have in Iraq, which is a fairly educated 
and capable population.
    So without overcoming those obstacles, we are probably not 
ever going to be able to get the kind of inventory and security 
for weapons that we really want to have. Is that your read as 
well?
    Mr. Schneider. I mean that is clearly one major factor, but 
another one as well is the fact that you have a very thriving 
opium industry in Afghanistan that finances corruption right 
across the board. And until you do something more effective in 
dealing with the opium--particularly the trafficking side, that 
is the processing and the trafficking, where the real money is, 
it is going to be very difficult to eliminate the corruption 
that continues to exist.
    I mentioned a positive meeting with the new Minister of 
Interior, and I just note that when he was appointed, which was 
just in October, I mean he basically said administrative 
corruption in the Ministry of Interior and the police 
leadership is irrefutable. Jobs are being bought and the poor 
people are paying the price. And part of the reason is because 
those are the places where the drug traffickers need assistance 
to move their product.
    And I will say that we need to see within this overall 
strategy a much more coherent kind of a drug program than we 
have today, and it needs to be focused at the top of the 
pyramid, if you will, not at the poor farmer. It needs to be 
focused at interdiction of the convoys, the processing, the 
labs, as opposed to the Afghan farmer who is either forced to 
by poverty or forced to by the threat of being killed by the 
Taliban.
    If you remember that map that showed--the last map--in fact 
it should be in the back of your testimony--my testimony. But 
it had big brown circles, and they were generally in the same 
area where that extreme risk existed. Those brown circles are 
where opium is grown and processed, and that is the linkage. 
There it is. That whole salmon area is extreme risk because the 
Taliban is either there on a permanent basis or can get there 
whenever it wants, and the brown circles are where the 
narcotics exist.
    Mr. Tierney. When you say Taliban, I think you might use 
that a little loosely. We are not just talking Taliban, we are 
talking insurgents, warlords, and drug dealers, some of whom 
the Taliban hook up with because it is a way to get income and 
some whom don't.
    Mr. Schneider. Yes, exactly.
    Mr. Tierney. And I think it does little to no good for the 
general populace, in terms of their morale and belief in their 
government when they drive down the street and see a mansion 
owned by a drug baron next to the slums where they are living. 
And when you buy a police chief's job for $100,000 to get paid 
$200 a month because you know you can make up the difference in 
graft and corruption.
    And one other point is we have met with the Minister of 
Commerce, who indicated that if you take pomegranates from one 
area in the south and you try to drive it through the country 
and out the other side, it may cost you as much as $485 if you 
get stopped 27 times--27 times--by warlords, local villagers, 
police in the municipal area, on that basis. It is less costly 
to send a container of pomegranates from there to California. 
So the problems are huge, and I think we have to address how we 
are going to do that.
    If I could just talk a second about the Focused District 
Development Plan, which is the latest in the Combined Security 
Transition Command, Afghanistan, CSTC-A's approach to that is 
to take a community, a district, take all the police out that 
the community is upset because they are corrupted, and bring 
them over to the academy for training, replacing them with the 
Afghan National Corps, which is already highly trained, more 
well trained that the regular police. And for an 8-week period 
that goes on and then you bring back the trained unit from the 
local area, ostensibly with some mentors and other people and 
that, but not always. If we do that on the pace they are at 
right now, it will probably take us 15 to 20 years to get all 
the districts in this country developed.
    I think it is an interesting idea, but it is hard to see 
how that is going to solve the problem of that, particularly 
when we had reports of up to 40 percent attrition in some 
units. You get them all trained up and 40 percent of the people 
drop off somewhere on that.
    I would just like to hear the comments that people might 
have about what they see as the future of that particular 
program, and am I right in my assessment it could take us 
forever to get to a point where you--they are already going 
back to retrain some of the six that they did.
    Mr. Schneider. I guess my view is at this point, that is 
the best we got. We don't have enough of them and we don't 
train them for a long enough period of time. In other words, I 
would much rather see those units going out and being trained 
for 4 to 7 months and coming back and keep the end ANCOP there, 
buildup more ANCOP to do that. But you are going to need more 
training centers. We now have I think six regional training 
centers. You are going to need more of those, you are going to 
need more trainers and mentors, a substantial number more.
    The question is how serious do we believe this links up to 
the ability to confront the insurgency. And if we think it is 
crucial to have an effective police force to do that, then we 
have to commit the resources. I mean there is no other--this 
can't be done on the cheap. And the effort at the auxiliary 
police, 10 days training, here is a gun, that was a disaster.
    And now the new idea of taking, in the Pashtun area, taking 
militias, providing them with weapons, giving them a 
substantial amount of authority, but not within the command 
structure of the Afghan----
    Mr. Tierney. I want to explore that a little bit more with 
you, but I want to give Mr. Flake an opportunity to ask 
questions as well.
    Mr. Flake. Mr. Johnson, for the record again, we know the 
controls aren't there, the recommendations have been made, 
there is some evidence that those are being implemented already 
and we will see. I believe you are going back in March, is it? 
It would be nice for our committee to made aware of any 
analysis that you have after that time.
    But right now, we have no hard evidence that these weapons 
are ending up in the hands of the Taliban. We haven't had our 
forces go out and do a raid and find our own weapons being used 
by the Taliban, is that correct?
    Mr. Johnson. We have no firsthand accounts on our own, and 
nor have we seen any Department of Defense-specific military 
forces reporting that. But, however, some of the contractors 
who are working on behalf of the U.S. Government have reported 
in some of their assessment reports that they have allegations 
of theft and reports of the enemy actually receiving some of 
the weapons.
    Mr. Flake. But we haven't seen evidence yet that they have 
been used against our forces?
    Mr. Johnson. No sir, we have not.
    Mr. Flake. When I finished my first round, I asked what 
remedies there are. Obviously with our own controls that we 
have put in, we can enforce those and make sure that no 
additional weapons are given out unless there are proper 
controls there. But when you are dealing with partners that may 
not come through, but you have to rely on, there is no other 
choice.
    What kind of remedies can we have to ensure that the 
Afghans maintain or cooperate and implement their side of the 
controls that they need to? What can we do to ensure that 
happens, realizing that we can't simply say we are just not 
going to deal with the Afghan forces anymore? They have to be 
equipped. They are certainly not useful if they are not. What 
can we do there?
    Mr. Johnson. I think one control we can put in place is the 
routine monitoring of the weapons that are being provided. 
Routinely, as we go out to some of the units, checking, since 
we do have mentors who are embedded with the units to check on 
the weapons and to maybe to random inventory checks.
    Mr. Flake. Those recommendations were made as well.
    Mr. Johnson. That is, from what I believe, a part of what 
their plans in the future may be, to include some of that in 
there.
    Mr. Flake. OK.
    Mr. Gimble. We have actually made those recommendations.
    Mr. Flake. I'm sorry?
    Mr. Gimble. I said we have actually made those 
recommendations.
    Mr. Flake. You have made those recommendations, alright.
    Mr. Schneider, you mentioned that unless we get a hold of 
the poppy production and deal with that, do you see evidence 
with the recent kind of change in focus by NATO forces, 
allowing them to involve themselves more closely, do you see 
that as helping at this point yet or just the potential that it 
might be of help down the road?
    Mr. Schneider. I think that if it is implemented, it will 
clearly be of help. There is something that we called for--I 
went to Afghanistan in 2003 the first time and at that time, no 
one, neither NATO nor the U.S. forces, were willing to do 
anything about the opium poppy trafficking. If they found it on 
the road, they would let it go.
    And I think that now this new order which permits them to 
go after the processing centers and the labs, at the request of 
the Afghan government, is quite positive. If you begin to place 
some additional risk there into the system and at the same time 
provide the farmers some alternatives in terms of credit for 
licit crop production and the access to services, you begin to 
have a chance at dealing with the problem. And if you begin to 
deal with corrupt officials at the top level.
    Mr. Flake. It is interesting. You mentioned that there 
didn't seem to be the focus early on in 2003. I visited 
Afghanistan for the first time, I think it was 2003, or just 
after Karzai was put in place.
    And he mentioned--I went back to my notes when we met him 
this last time just 2 months ago--I went back to my first notes 
and he said ``The biggest battle we have is on poppies.'' He 
called it the mother of all battles.
    This time, I saw a decidedly less committed approach and 
denial it seemed that poppy production was actually aiding the 
enemy or financing terrorism. He in fact claimed that it 
wasn't. And there are people who say ``Well, that is because he 
is unwilling to followup on corruption charges for family 
members and everything else,'' but you see it differently.
    Do you see the Afghans themselves, or just more of a focus 
on our efforts? Are the Afghans following up in that regard or 
not?
    Mr. Schneider. At this point, it is very hard to see--
except for the naming of the new Minister of Interior and the 
new Attorney General. Those are positive steps because the 
Ministry of the Interior was--even though it was responsible 
for police, it in fact was a place where there was a 
significant amount of corruption and linkage to drug 
trafficking.
    I'm hopeful that means that there is a willingness on the 
part of the Afghan government to take serious action. Without 
that, you can throw money at the problem, and it is not going 
to work. You have to demonstrate there is political will at the 
top to go after drug traffickers.
    Mr. Flake. Thank you.
    Mr. Tierney. Mr. Schneider, let me just ask a couple final 
questions here. The European Union is supposed to be deeply 
involved in this training of police and the law and order 
justice situation on that, and have been missing in action 
largely on that. They have a new representative there as well. 
They are doubling the size of their commitment to the 
international aspect on that. Do you see any hope on that or is 
that all mirrors and smoke?
    Mr. Schneider. No, I mean I think that--they together with 
NATO I think recognize now that the--creating a functioning, 
effective police force is part of--an essential part of the 
security problem in Afghanistan.
    And so I'm hopeful that, as you note, those initial actions 
will be followed by substantial new contributions of trainers. 
They also--remember, as I said, I have the numbers of the 
United States, but we know in Europe there are substantial 
numbers of civilian police available. They put hundreds of 
police into the Balkans in the aftermath of the conflict there, 
so much more can be done, and I hope it will be.
    Mr. Tierney. Last, let me just ask about--you mentioned 
briefly and I want to just explore that a little bit, this new 
concept that it seems that CSTC-A and the United States may at 
least be tacitly allowing it to go forward if not fully 
endorsing it. And that is to have a local council nominate 
young men from their village to be a security force of sorts, 
who would then get vetted, ostensibly, by the Afghanis and by 
our forces to check and see the best they can if they have any 
record of involvement with insurgents, and then they would be 
involved with security while the police would be involved for 
policing within that.
    Will you tell us about some of the inherent risk in that 
and your assessment of whether or not that is a good way to 
move forward?
    Mr. Schneider. We see three risks. The first, obviously, is 
that if they are paying these individuals more than they are 
paying the police on the beat, it is going to create problems 
for the police. Second is whatever resources you are devoting 
to that are not resources you are devoting to creating an 
effective Afghan National Police Force. And finally, if they 
are not under the direct command of the local--of the Afghan 
National Police, you are creating the potential for a difficult 
situation there.
    But finally, nationally, if you are only arming Pashtun 
tribal militias, whatever you want to call them, then you are 
exacerbating the North/South political divide in the country 
and you are going back and setting in motion the reverse trend 
of re-arming local militias. And it is very hard to think that 
the other ethnic groups, the Tajiks and others, who have been 
disarmed to some degree under programs that the United States 
and NATO have financed, it seems to me very hard to say 
``Sorry, your tribes and your local communities can't do the 
same thing.'' And they are probably going to get as much money 
from their warlords as we provide to them, the Pashtuns.
    Mr. Tierney. I want to thank the ranking member, obviously, 
for his participation and the committee members, but I want to 
thank our witnesses most of all. You have been very helpful 
with your reports, and your staff, their work on that, and with 
your testimony here today.
    This is a perplexing sub-part of a much larger perplexing 
problem that we have that has international implications and 
questions as to what our strategy going forward is, and it is 
going to have to encompass this aspect as well as some broader 
strategy aspects.
    I personally think that we are going nowhere unless we 
start including other nations in these conversations, and that 
includes Iran and Russia and China and India and the Stans, all 
of whom, in some instances, have more risks than we have. A lot 
of these acts that have been going on with the poppy, of 
course, and the opium goes to mostly Europe, and they have a 
high interest there. There is concern that some of the 
insurgents spreading from the Taliban would in fact go through 
Tajikistan and Kyrgyzstan and Uzbekistan and those places, and 
on up into Russia.
    So I think that we have to start realizing that everybody 
has a stake in this and start looking strategically in a much 
broader way, and also, as we do that, come down and focus on 
these very real and particular issues and make sure that we are 
not arming the very insurgents that we are trying to suppress 
on that basis.
    So thank you for all of your assistance. You know that we 
look forward in asking for your assistance again, and we 
appreciate all the help you have given us.
    Meeting is adjourned.
    [Whereupon, at 11:44 a.m., the subcommittee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
